No. 19-825

IN THE

Ouprente Court of tbe liniteb *taco
FEDERAL TRADE COMMISSION,
Petitioner,
v.
CREDIT BUREAU CENTER, LLC AND
MICHAEL BROWN,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,110 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 14, 2020.

(/
Colin Case. Hogan
Wilson-Epes Printing Co., Inc.

